HHS/OIG-Audit--"Review of Medical Assistance Payments to Eight Free-Standing Inpatient Alcoholism Providers Within New York State, (A-02-91-01033)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medical Assistance Payments to Eight Free-Standing Inpatient Alcoholism Providers Within New York State," (A-02-91-01033)
April 8, 1992
Complete
Text of Report is available in PDF format (1.26 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the State agency improperly claimed $2,008,798 (Federal share) for Medicaid payments
made to eight free-standing inpatient alcoholism providers during the period April 1, 1987 to October 31, 1990. The claims
were improper because the services provided were not covered by the Medicaid program during the above period. The State
and Health Care Financing Administration Region II officials concurred with our recommended financial adjustment for $2,008,798.